NO. ________________
IN THE SUPREME COURT OF THE UNITED STATES

ANTHONY MORENO,
PETITIONER,
VS.

UNITED STATES OF AMERICA,
RESPONDENT.

PETITION FOR WRIT OF CERTIORARI TO THE UNITED
STATES COURT OF APPEALS FOR THE FIFTH CIRCUIT
CERTIFICATE OF SERVICE
RANDALL H. NUNN, a member of the Bar of the State of Texas and
appointed under the Criminal Justice Act, certifies that, pursuant to Rule
29.5, he served the preceding Petition for Writ of Certiorari and the
accompanying Motion for Leave to Proceed In Forma Pauperis on counsel
for the Respondent by enclosing a copy of these documents by United States
Postal Service mail, and addressed to:
The Honorable Jeffrey B. Wall
Acting Solicitor General of the United States
Room 5614, Department of Justice
950 Pennsylvania Avenue, N.W.
Washington, D.C. 20530-0001

Joseph Wyderko, Esq.
Deputy Chief Appellate Section
Criminal Division
U. S. Department of Justice
950 Pennsylvania Avenue, NW, Room 1264
Washington, D.C. 20530

Leigha Amy Simonton, Esq.
Assistant U.S. Attorney
1100 Commerce Street
Third Floor
Dallas, Texas 75242

and further certifies that all were served on September 16, 2020.

s/Randall H. Nunn
Randall H. Nunn
Attorney for Petitioner

